   June 27, 2003




Defense Infrastructure


Status of Extended Pilot Program on
Sales of Manufactured Articles and
Services at Army Industrial Facilities
(D-2003-103)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

GSIE                  Ground Systems Industrial Enterprise
MCAAP                 McAlester Army Ammunition Plant
JMC                   Joint Munitions Command
RIA                   Rock Island Arsenal
WVA                   Watervliet Arsenal
          Office of the Inspector General of the Department of Defense
Report No. D-2003-103                                                         June 27, 2003
   (Project No. D2002CK-0215)

       Status of Extended Pilot Program on Sales of Manufactured
            Articles and Services at Army Industrial Facilities

                                 Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers
responsible for industrial facilities for the Army should read this report. This report
discusses the importance of maintaining data sufficient for proper assessment of the
effectiveness of the Extended Pilot Program on Sales of Manufactured Articles and
Services at Army Industrial Facilities (Pilot Program).

Background. This report is the fourth report on the Pilot Program. This audit was
required by the National Defense Authorization Act for FY 1998, section 141,
subsection (c), and reauthorized by the National Defense Authorization Act for FY 2003.
The National Defense Authorization Act for FY 2003 extends through FY 2004 the
waiver of section 4543(a)(5), title 10, United States Code, “Army Industrial Facilities:
Sales of Manufactured Articles or Services Outside the Department of Defense,” which
requires that the Secretary of the Army determine whether an article or service is
available from a commercial source located in the United States. Pilot Program
legislation allows Army industrial facilities to bid on commercial contracts without
regard for commercial sources if the end product or service is used in a DoD weapon
system program. The three Army industrial facilities participating under the Pilot
Program are McAlester Army Ammunition Plant, Oklahoma; Rock Island Arsenal,
Illinois; and Watervliet Arsenal, New York. From Pilot Program inception in FY 1998
through the end of FY 2000, the three facilities issued 12 contracts and 1 order, with a
cumulative value of about $6 million. Of the $6 million, $5.2 million was for one
contract that was incrementally funded over a 5-year period.

Results. We believe the Pilot Program should continue because the program has
increased opportunities for Army industrial facilities to form working relationships with
commercial concerns. From October 2000 through November 2002, $16.9 million in
contract actions was awarded under the Pilot Program with little interest shown by
commercial concerns. Based on our interviews with Army industrial facility personnel
and our prior reports, the requirements that contractors pay before receiving articles and
services (advanced payments) and that Army industrial facilities charge full costs, as well
as the high overhead rates of the Army industrial facilities, have hindered the success of
the program. Hourly overhead rates have, with one exception, decreased since FY 2001
as a result of the Arsenal Support Programs Initiative and other private-public partnership
arrangements. We did not identify either any opportunities or detriments to small
business as a result of the waiver. See Appendix C for detailed answers to the specific
questions identified in the National Defense Authorization Act for 1998, section 141,
subsection (c), and reauthorized by the National Defense Authorization Act of 2003.
The effectiveness of the Pilot Program should improve if the Army develops metrics and
goals that measure achievements of the program. Also, the Army should increase
monitoring efforts of the bids submitted and contracts awarded under the Pilot Program.
Additionally, the Army should examine the cost-cutting measures used at Anniston Army
Depot, Alabama, as well as measures used at other facilities and implement the measures
where appropriate. The Army should also increase awareness of the Pilot Program to
increase workload at the three Army industrial facilities (see the Finding section of the
report for the detailed recommendations).

Management Comments. We provided the draft of this report on April 18, 2003. The
Army did not comment because of ongoing higher priority issues. Comments on the final
report are requested from the Army by July 28, 2003.




                                           ii
Table of Contents

Executive Summary                                                      i

Background                                                             1

Objective                                                              2

Finding
     Pilot Program Status                                              3

Appendixes
     A. Scope and Methodology                                         13
          Prior Coverage                                              14
     B. Listing of October 2000 Through November 2002 Pilot Program
        Contract Actions                                              15
     C. Issues and Results                                            17
     D. Report Distribution                                           21
Background
      National Defense Authorization Act for FY 2003. This audit is the fourth audit
      of the Pilot Program Sales of Manufactured Articles and Services at Army
      Industrial Facilities (Pilot Program) conducted in response to a tasking in Public
      Law 105-85, “National Defense Authorization Act for FY 1998.” The National
      Defense Authorization Act for FY 2003 extends through FY 2004 a waiver to
      determine the commercial availability of products or services when being sold for
      DoD weapon systems, which section 4543 (a)(5), title 10, United States Code
      (10 U.S.C. 4543), “Army Industrial Facilities: Sales of Manufactured Articles or
      Services Outside Department of Defense” requires. The National Defense
      Authorization Act for FY 2003 requires that:
             The Inspector General of the Department of Defense shall review the
             experience under the Pilot Program carried out under section 141 of
             Public Law 105-85 and, not later than July 1, 2003, submit to Congress
             a report on the results of the review. The report shall contain the
             views, information, and recommendations called for under subsection
             (d) of such section (as redesignated by subsection (b) (1)). In carrying
             out the review and preparing the report, the Inspector General shall
             take into consideration the report submitted to Congress under such
             subsection (as so redesignated).

      The congressionally mandated questions and the Office of the Inspector General
      answers are at Appendix C.

Guidance for Sale of Articles and Services Outside of DoD
      Section 141 of the National Defense Authorization Act for FY 1998 required that
      the Army conduct a Pilot Program that tests the efficacy and appropriateness of
      selling manufactured articles and services of Army industrial facilities under
      10 U.S.C. 4543. The Pilot Program waives 10 U.S.C. 4543, which requires that
      the Secretary of the Army determine whether an article or service is available
      from a commercial source in the United States. The waiver relates specifically to
      the sale of articles for a weapon system the DoD is procuring or the sale of
      services used in the manufacture of any weapon system the DoD is procuring.
      The Pilot Program allows the Army industrial facilities to compete for
      commercial contracts of manufactured articles and services without regard to the
      availability of the articles and services from U.S. commercial sources.
      Implementation of the Pilot Program is limited to three Army industrial facilities.

Pilot Program Facilities

      The Acting Assistant Secretary of the Army approved McAlester Army
      Ammunition Plant, Oklahoma (MCAAP); Rock Island Arsenal, Illinois (RIA);
      and Watervliet Arsenal, New York (WVA) for inclusion in the Pilot Program. As
      a result of a reorganization, both RIA and WVA are organizationally aligned




                                                1
    under the Tank-automotive and Armaments Command, whereas MCAAP is
    aligned under the Joint Munitions Command (JMC) (JMC was formerly known
    as the Operations Support Command).

    McAlester Army Ammunition Plant. The MCAAP mission includes producing
    and renovating conventional and missile ammunition as well as ammunition-
    related components. MCAAP also performs engineering and product assurance
    that directly supports production of ammunition products. The major functional
    areas at MCAAP are receiving, storing, shipping, demilitarizing, and disposing of
    both conventional and missile ammunition along with related items. As of
    September 2002, MCAAP had an authorized workforce strength of
    873 employees.

    Rock Island Arsenal. RIA supports the warfighter through manufacture of
    armaments and assembly of sets, kits, outfits, basic issue items, and various
    systems. RIA also provides base operations and regional support along with
    maintaining capability and capacity in support of the national military strategy.
    The major functional areas at RIA are manufacturing, logistics, and base
    operations. As of September 2002, RIA had an authorized workforce strength of
    1,189 employees.

    Watervliet Arsenal. WVA is the Nation’s oldest manufacturing arsenal and
    produces high-technology, high-powered weaponry that includes recoilless rifles,
    mortars, howitzers, and tank guns. The principal product of WVA is the cannon.
    The arsenal also manufactures the guns for the Army’s M1A1 Abrams tank.
    Collocation of Benet Labs with WVA allows life-cycle management of products
    from prototyping and testing to full-scale production. As of September 2002,
    WVA had an authorized workforce strength of 440 employees.


Objective
    The audit objective was to determine the status of the Pilot Program.




                                         2
           Pilot Program Status
           The three participating Army industrial facilities obtained limited
           additional work from the Pilot Program. From October 2000 through
           November 2002, contract actions totaling $16.9 million were awarded
           under the Pilot Program. Army industrial facility personnel and prior IG
           DoD reports attributed the Pilot Program’s lack of success to advance
           payments, charging full costs, and high overhead rates. Lack of
           documentation the Army industrial facilities maintained in relation to bids
           submitted for the Pilot Program preclude a definitive determination for
           what caused the Pilot Program to be minimally effective. As a result, the
           Pilot Program had limited effect on increasing the use of the three Army
           industrial facilities.


Pilot Program Contracts
    From October 2000 through November 2002, contract actions totaling
    $16.9 million were awarded under the Pilot Program. See Appendix B for a
    listing of Pilot Program contract actions issued from October 2000 through
    November 2002. Of the contracts awarded between October 2000 and
    November 2002, MCAAP was awarded four contracts, one order on an FY 2001
    contract, and three orders on pre-FY 2001 contracts, and received
    two incremental payments with a cumulative value of about $4.8 million; RIA
    was awarded a basic ordering agreement with two orders valued at about
    $500,000; and WVA was awarded two contracts and three orders valued at about
    $11.6 million. The industrial facility personnel interviewed at each of the three
    facilities stated that the primary reason the Pilot Program had not generated
    significant additional work was the result of high overhead rates and charging full
    costs. According to MCAAP and WVA personnel, the requirement for advance
    payments, which involves paying for articles and services in advance of
    performance, also impeded the Pilot Program. IG DoD Report No. D-2001-069,
    “Pilot Program on Sales of Manufactured Articles and Services of Army
    Industrial Facilities,” March 1, 2001, and IG DoD Report No. 99-203, “Status of
    Implementation of the Pilot Program on Sales of Manufactured Articles and
    Services of Army Industrial Facilities,” July 8, 1999, both discuss that the
    requirement to charge full costs and the requirement for advance payments
    hindered the Pilot Program from accomplishing the intended purpose.


Impediments Eliminated or Mitigated
    IG DoD Report No. 99-121, “Pilot Program on Sales of Manufactured Articles
    and Services of Army Industrial Facilities,” April 2, 1999, and IG DoD Report
    No. 99-203 identify several impediments to the success of the Pilot Program that
    were either eliminated or mitigated. Extension of the Pilot Program remedied the
    inadequate assessment of the Pilot Program because of delayed implementation,
    as IG DoD Report No. 99-121 identifies. Following IG DoD Report No. 99-203,
    the changes enacted by section 342 of the National Defense Authorization Act for

                                         3
    FY 2001 restricted the Army arsenals from charging a commercial entity prices
    that included unutilized and underutilized plant capacity costs funded by direct
    appropriation. Also, the Army Materiel Command canceled the Office of
    Management and Budget Circular No. A-76, “Performance of Commercial
    Activities,” August 4, 1983, cost studies related to manufacturing functions at the
    Army arsenals. Potentially, the Army industrial facilities could have been closed
    as a result of the studies. In addition, section 343 of the National Defense
    Authorization Act for FY 2001 established the Arsenal Support Program Initiative
    designed to maintain the viability and capabilities of the Army industrial facilities
    through commercially contracting the use of the facility and skilled workforces.
    That initiative allowed Army arsenals to both lease to and team with commercial
    concerns for the purpose of relieving some of the financial burden at the
    installations. Because it applied only to Army arsenals, the initiative did not
    affect MCAAP.

    Chapter 64 of volume 11B, DoD 7000.14R, “Reimbursable Operations, Policy
    and Procedures – Defense Working Capital Fund,” Financial Management
    Regulation, duplicates guidance contained in section 2208, title 10, United States
    Code, “Working-Capital Funds;” 10 U.S.C. 4543; and section 127a, title 10,
    United States Code, “Operations For Which Funds Are Not Provided in Advance:
    Funding Mechanisms.” In October 2002, chapter 64 was deleted from
    volume 11B of the Financial Management Regulation, but this deletion does not
    address conflicts between section 2208, title 10, United States Code, and
    10 U.S.C. 4543. Section 2208, title 10, United States Code requires that
    working-capital funding activities recover the full costs of articles or services sold
    and request special permission for advance billing, while 10 U.S.C 4543
    authorizes facilities participating in the Pilot Program to “charge buyers, at a
    minimum, the variable costs that are associated with the articles or services” and
    authorizes advance payment for articles and services.


Impediments of the Pilot Program
    The Army industrial facility personnel we interviewed as well as IG DoD Report
    No. D-2001-069 and IG DoD Report No. 99-203 note that advance payments and
    charging full costs were impediments to the success of the Pilot Program. Army
    industrial facility personnel also stated that high overhead rates were an
    impediment. We could not determine why the three Army industrial facilities
    were not awarded contracts from Pilot Program bids submitted because of a lack
    of data maintained on bids submitted.

    Advance Payments. Personnel at MCAAP and WVA considered advance
    payments an impediment to the Pilot Program because advance payments vary
    from standard commercial business practices. Additionally, IG DoD Report
    No. D-2001-069 and IG DoD Report No. 99-203 identify advance payments as an
    impediment because contractors were not willing to pay before the articles and
    services were received.

            Army Industrial Personnel. Personnel at two of the facilities
    participating in the Pilot Program identified the requirement for advance


                                          4
payments as an impediment in acquiring Pilot Program contracts. An official at
MCAAP stated that the installation did not lose any Pilot Program contracts
because of the requirement for advance payment. The official believed that
advanced payments caused customers to be hesitant in doing business with the
installation, but no contracts have been lost as a result. WVA officials
commented that the legal requirement to charge advance payments for goods and
services made obtaining new work difficult for the facility.

       Prior IG DoD Reports. IG DoD Report No. D-2001-069 and IG DoD
Report No. 99-203 discuss advance payment for articles and services as an
impediment of the Pilot Program because commercial practices allow buyers to
provide payment for the item up to 90 days after receipt. Advance and
incremental payments do not allow buyers to inspect and accept the items before
payment is made.

Full Costs. Personnel from the three Army industrial facilities stated that the
requirement to charge full costs increases Pilot Program bid amounts, which
deters potential customers from taking advantage of the Pilot Program. IG DoD
Report No. D-2001-069 and IG DoD Report No. 99-203 both identify full costs as
an impediment because the three industrial facilities were at a disadvantage when
competing against commercial entities. Commercial entities include only costs
attributable to the product or service provided.

Army Industrial Personnel. Personnel from the three Army industrial facilities
stated that high prices were a barrier for obtaining Pilot Program contracts.
However, only MCAAP officials contacted the contractor to request a reason for
bid rejection. One MCAAP official stated that cost was the most common reason
contractors provided for not awarding contracts. RIA officials stated that rates
were fully burdened and, although based on personal opinion, if the rates were not
fully burdened, RIA would have received an increased number of contracts under
the Pilot Program. RIA officials also stated that RIA incurred costs as a result of
a reduction in force, and the cost associated with the reduction was absorbed in
the cost to customers. WVA also stated that the wording of the Financial
Management Regulation was a barrier because it requires the arsenals to charge a
fully burdened overhead rate as part of the cost to customers.
        Prior IG DoD Reports. IG DoD Report No. D-2001-069 and IG DoD
Report No. 99-203 state that conflicting guidance on handling full costs prevented
the Army industrial facilities from acquiring more Pilot Program contracts.
Chapter 64 of the Financial Management Regulation directs a working-capital
fund site to charge customers for the full cost of goods and services provided, but
10 U.S.C. 4543 allows the facilities to charge “at a minimum, the variable costs
that are associated with the commercial articles or commercial services sold.”
The Under Secretary of Defense (Comptroller) nonconcurred with
recommendations of IG DoD Report No. D-2001-069 and IG DoD Report
No. 99-203 for waiving the guidance in chapter 64 that requires full costs.




                                     5
    Overhead Rates. Personnel at the three industrial facilities stated that high
    overhead rates inhibited the facilities from obtaining Pilot Program contracts.
    According to officials at MCAAP and RIA, high overhead rates at both facilities
    prevented them from being competitive with commercial vendors. At WVA,
    where overhead rates were the highest, officials stated that an increasing number
    of uncontrollable costs at the installation level are restricting the ability to reduce
    unit costs. WVA officials further stated that, although the costs can be forecasted,
    the installation had no control over policies or decisions that change the costs
    during the execution year. One WVA official stated, “As the total workload
    decreases, these costs constitute an increasingly larger percentage of the total
    program and are fixed. The reduction in direct labor workload, combined with a
    higher percentage of fixed costs, elevates the unit cost of the installation’s
    products.”

    Although the overhead rates at the three industrial facilities have decreased, the
    effect of the decrease on facility competitiveness with commercial vendors is
    uncertain. WVA had the highest overhead rates. WVA still managed to obtain
    about $11.6 million in Pilot Program contracts, even though Pilot Program status
    of the contracts is disputed between JMC and WVA (see Appendix C, Issue 4).
    Between FY 2001 and FY 2002, the rates decreased by about 14.3 percent at
    MCAAP, 6.5 percent at RIA, and 4.8 percent at WVA. The rates are projected to
    decrease between FY 2002 and FY 2003 another 15.7 percent at MCAAP and
    12.7 percent at RIA. For that same time frame, WVA projected an increase for
    overhead rates of about 8.4 percent. Even though the overhead rates appear to
    decrease, the number of Pilot Program contracts obtained has not
    increased significantly.


Assessment of the Army Pilot Program
    The Pilot Program waiver of section 4543(a)(5), title 10, United States Code
    made engaging in contracts with commercial vendors easier for Army industrial
    facilities but minimally affected those facilities overall. Since the inception of the
    Pilot Program in June 1998 through November 2002, 19 contracts, valued at
    about $22 million, were awarded. For the first 25-month period (September 1998
    through September 2000), the three industrial facilities collectively received about
    $6 million in Pilot Program contracts. During the next 26-month period
    (October 2000 through November 2002), about $16.9 million in contracts
    were awarded. Based on comments received from RIA on a discussion draft,
    other basic agreements and sales negotiations that could result in Pilot Program
    contracts have occurred since December 2002.

    The Pilot Program contracts constituted a small percentage of the overall value of
    contracts for the three facilities. In fact, Pilot Program contracts were about
    1 percent of the total contracts at MCAAP and RIA (similar data from WVA were
    unavailable). The numbers also included three orders totaling $1,119,307 on one
    contract that MCAAP entered into prior to the Pilot Program. Additionally, while
    Pilot Program contracts at WVA were primarily responsible for the $10.9 million
    increase in contract awards, WVA personnel did not consider them to be Pilot
    Program contracts. Contracting officials at JMC and personnel from the three


                                          6
    facilities acknowledged that, regardless of the waiver, the contracts would have
    been awarded to the facilities. Army industrial facility personnel indicated that
    barriers such as charging full cost, advance payments, and high overhead rates
    were actually hindering the Pilot Program. Because of a lack of data related to
    bids submitted for the Pilot Program, we cannot substantiate the causes for the
    lack of success of the Pilot Program that Army personnel provided.


Pilot Program Areas of Concern
    We believe that the following information Army personnel provided about Pilot
    Program goals, data management, Pilot Program determination, retaining a skilled
    workforce, marketing of the Pilot Program, and a high percentage of unutilized
    capacity is worth noting. Lack of established goals and objectives of the Pilot
    Program hindered the ability to measure the degree of successfulness of the Pilot
    Program. The inability to distinguish Pilot Program data from other operations of
    the three industrial facilities hindered the Army from making changes in policies
    that would benefit the Pilot Program and the facilities. Also, misunderstandings
    exist between the Army industrial facilities and JMC regarding when a contract
    should be classified as a Pilot Program contract. Officials at the industrial
    facilities expressed that lack of funding resulted in difficulties in retaining a
    skilled workforce and marketing the facilities capabilities. Finally, based on
    information the three industrial facilities provided, unutilized plant capacity at the
    three industrial facilities remained consistently high from October 2000 through
    November 2002.

    Pilot Program Goals. Goals were not established for the Pilot Program. Army
    industrial personnel indicated that no goals existed for the Pilot Program at the
    three industrial facilities. Personnel at MCAAP and RIA stated that any work the
    Pilot Program generated makes the program a success. Because no goals were
    established for the Pilot Program, the extent to which the Pilot Program was
    successful could not be measured. Army personnel should establish metrics and
    goals that measure the achievements of the Pilot Program. Goals should be
    established for reducing overhead costs, increasing workload, and utilizing plant
    capacity as a result of the Pilot Program. To determine successfulness of the Pilot
    Program, Army personnel should have a method for comparing actual data with
    the goals.

    Data Management. None of the personnel at the three Army industrial facilities
    maintained detailed data that would allow for easy identification of Pilot Program
    bids or the reasons for rejection of the bids submitted. Only the personnel at
    MCAAP could manually sort through contract files and provide copies of Pilot
    Program bids. RIA and WVA personnel were unable to distinguish between bids
    placed through the Pilot Program and bids submitted through other operations at
    the facilities. Additionally, only the MCAAP personnel stated that they attempted
    to follow up with contractors to determine the reasons for bid rejections but rarely
    included the explanation in contract files. Army personnel should follow up when
    bids submitted do not result in contract award and capture data that identifies
    strengths and shortfalls of the Pilot Program bids.



                                          7
Pilot Program Contract Determination. JMC and WVA differed on what was
considered a Pilot Program contract. JMC contracting personnel included as a
Pilot Program contract any contract that waives the need to determine whether a
commercial source is available. If the contractor provides a statement of
commercial nonavailability, then the contract did not take advantage of the Pilot
Program. RIA personnel initially reported two Pilot Program contracts, but JMC
contracting officials stated that one of the contracts, valued at $15,267, included a
statement of commercial nonavailability. In contrast, WVA personnel did not
consider any contract as part of the Pilot Program if WVA would have received
the contract without the Pilot Program. Consequently, WVA personnel did not
consider three contracts, valued at about $11.6 million, as Pilot Program contracts
although JMC officials included those contracts as part of the Pilot Program
contract listing for WVA. JMC contracting officers admitted that contracts are
generally awarded to the facilities when contractors have no other commercial
options.

Retaining a Skilled Workforce at the Facilities. Maintaining a skilled
workforce is critical to the success of programs such as the Pilot Program that are
aimed at lowering costs and increasing workload at industrial facilities. The
average age of employees at the three Pilot Program facilities ranged from 45 to
49 years, making most of the workforce eligible for retirement within 5 to
10 years. In the past, the facilities used apprenticeship programs to replenish the
core skill areas. Reductions in force throughout the 1990s and lack of funding
provided to the arsenals forced the suspension of apprenticeship programs.
MCAAP developed a program in which students receive job-related training at
MCAAP. Once the academic studies are completed, students may be
non-competitively converted to career-conditional appointments with MCAAP.
RIA has reestablished an apprenticeship program; however, lack of funding has
hindered the success of the program. Additionally, WVA has been unable to
reinitiate an apprenticeship program because of the lack of funding.

Awareness of the Pilot Program. Limited marketing of the Pilot Program by
Army personnel has not generated significant additional work for the three
industrial facilities. Since the beginning of FY 2001, only seven new contracts
have been awarded. Marketing of the Pilot Program is accomplished almost
exclusively in conjunction with other facility programs. MCAAP personnel
stated that commercial marketing of the Pilot Program is basically done by word
of mouth. At RIA, personnel stated they participate in trade shows, and the
facility Web site includes Pilot Program information but most marketing for RIA
is accomplished through current contractors and contractor contacts. WVA lacks
the funds needed to market the Pilot Program. Based on the number of contracts
issued as of November 2002, each industrial facility needs to increase awareness
of the Pilot Program.

Unutilized Plant Capacity. Regardless of the fluctuations in the amount of
unutilized plant capacity at the three industrial facilities, the facilities reported
about 80 percent unutilized plant capacity. Based on data that personnel at Army
industrial facilities provided, unutilized plant capacity levels at both MCAAP and
WVA remain consistently greater than 70 percent. The unutilized capacity at RIA
exceeds 80 percent. Army personnel stated that unutilized plant capacity may



                                      8
    fluctuate based on DoD operations. Although each of the three industrial
    facilities has obtained work under the Pilot Program, the program has not
    decreased the amount of unutilized plant capacity.


Alternate Methods for Regenerating Workloads
    The Army should examine other methods for regenerating workload at depots and
    arsenals such as the public-private partnerships used at Anniston Army Depot,
    Alabama, the Ground Systems Industrial Enterprise (GSIE) concepts, and the
    Arsenal Support Program Initiative. Teaming with private industry or other Army
    industrial facilities and allowing tenants the use of industrial facilities in
    conjunction with the Pilot Program may reduce unutilized plant capacity and
    overhead rates.

    Anniston Army Depot Public-Private Partnerships. The Anniston Army
    Depot initiated discussions with private industries with the intent of building a
    network of tenant activities that could successfully generate workload and utilize
    otherwise idle workspace at the depot. Anniston Army Depot has more than
    30 partnerships and teaming arrangements. The teaming arrangements capitalize
    on the strengths and efficiencies of both the public and private sector. According
    to officials from GSIE, which is under the command of Tank-automotive and
    Armaments Command, Anniston Army Depot represents the way the Army
    should conduct business. Anniston Army Depot participates in three types of
    partnership programs: workshare programs, direct sales, and facility use
    programs. Anniston officials believe that public-private partnerships effectively
    reduced the cost of maintaining the facility at Anniston Army Depot.

    Tank-automotive and Armaments Command, GSIE. The Tank-automotive
    and Armaments Command is developing a concept through GSIE designed to
    scale down operations while maintaining core capabilities that support both the
    Army as well as customers outside of the Army. GSIE plans to operate six
    arsenals and depots--Rock Island Arsenal; Watervliet Arsenal; Sierra Army
    Depot, California; Anniston Army Depot; Lima Army Tank Plant, Ohio; and Red
    River Depot, Texas--as a single business unit. GSIE designed a concept for
    effectively using the core capabilities at the Army industrial facilities. For that
    concept to work, GSIE officials stated that DoD financial regulations must reflect
    current laws and business practice. Additionally, GSIE officials believe that one
    comprehensive statute governing all sales outside the DoD will eliminate
    confusion among the varying provisions and language caused by current direct
    sales statutes. Tank-automotive and Armaments Command personnel have
    drafted proposed changes to applicable DoD financial policies and statutory
    guidance. The changes would allow the facilities to operate more cost effectively.
    Also, because two facilities within GSIE participate in the Pilot Program, the
    waiver of 10 U.S.C. 4543 could provide additional assistance to GSIE as a whole.

    Arsenal Support Program Initiative. The Arsenal Support Program Initiative
    enables commercial tenants on Army arsenal property to play a part in helping
    reduce unutilized plant capacity and overhead costs. Authorized by the National
    Defense Authorization Act for FY 2001, the initiative is modeled after the


                                         9
    Armament Retooling and Manufacturing Support Program for Army depots.
    WVA implemented the program and has acquired one tenant, but because
    implementation is in the early stages, success cannot yet be measured. According
    to JMC officials, however, one facility under the Armament Retooling and
    Manufacturing Support Program totally covered their operation costs through the
    use of tenants.


Conclusion
    Use of the three participating Army industrial facilities minimally increased from
    the Pilot Program. Between the first 25-month period (about $6 million in
    contracts) and the next 26-month period (about $16.9 million in contracts), the
    workload increased by about $10.9 million. The three facilities, as of
    November 2002, were still reporting unutilized plant capacity rates above
    70 percent. Although the increased workload had a limited effect on the overhead
    rates or unutilized plant capacity at MCAAP, RIA, and WVA, any additional
    work is beneficial to the Army industrial facilities. However, officials at JMC
    and the three Army industrial facilities stated that contracts are usually awarded to
    the facilities because the articles and services are commercially unavailable. The
    Pilot Program in conjunction with public-private partnerships, GSIE concepts on
    streamlining operations at multiple Army industrial facilities, and the Arsenal
    Support Program Initiative could offer additional benefits for increasing workload
    and decreasing operational costs at the three Army industrial facilities.


Recommendations
    We recommend the Assistant Secretary of the Army for Acquisition, Logistics,
    and Technology:

            1. Develop progress metrics that measure achievements of the Pilot
    Program on Sales of Manufactured Articles and Services at Army Industrial
    Facilities.

            2. Require that the McAlester Army Ammunition Plant, Oklahoma; Rock
    Island Arsenal, Illinois; and Watervliet Arsenal, New York, collect and analyze
    data for the Pilot Program on Sales of Manufactured Articles and Services at
    Army Industrial Facilities. The data should include information on why bids
    submitted resulted in no award and the effect the program had on overhead rates,
    workload, and utilization. Additionally, the facilities should determine if
    successful bids would have been awarded without the benefits of the Pilot
    Program on Sales of Manufactured Articles and Services at Army Industrial
    Facilities.

            3. Examine alternative methods for increasing the use of the Army
    industrial facilities, such as the leasing of unutilized facilities and the teaming
    arrangements used at Anniston Army Depot, Alabama, or similar models.



                                          10
            4. Determine if implementation of alternative methods such as leasing
    unutilized facilities and teaming arrangements would be beneficial to McAlester
    Army Ammunition Plant, Oklahoma; Rock Island Arsenal, Illinois; and
    Watervliet Arsenal, New York, industrial facilities in conjunction with the Pilot
    Program on Sales of Manufactured Articles and Services at Army Industrial
    Facilities.

            5. Increase awareness of the Pilot Program on Sales of Manufactured
    Articles and Services at Army Industrial Facilities in conjunction with other
    methods used to increase use of the Army industrial facilities.


Management Comments Required
    The Department of the Army did not comment on a draft of this report. We
    request that the Department of the Army provide comments on the final report.




                                        11
Appendix A. Scope and Methodology
   We reviewed contracts issued under the Pilot Program on Sales of Manufactured
   Articles and Services at Army Industrial Facilities from October 2000 through
   November 2002.

   We interviewed key personnel from MCAAP, RIA, and WVA regarding
   FY 2001, FY 2002, and FY 2003 Pilot Program contracts, operating capacity,
   unutilized capacity, overhead and total rates, marketing the Pilot Program, and
   workforce strength for FY 2001 and FY 2002. We also toured the facilities at
   MCAAP, RIA, and WVA to obtain both an understanding of the work performed
   as well as the size of the facilities. We identified 19 contracts and 10 orders,
   valued at about $22 million, for Pilot Program contracts from inception of the
   program in June 1998 through November 2002 for the three sites. We reviewed
   contract documentation for contract actions under the Pilot Program from
   October 2000 through November 2002. We reviewed seven contracts and nine
   orders valued at about $16.9 million.

   We interviewed JMC personnel regarding contracts awarded under the Pilot
   Program and information on Armament Retooling and Management Support and
   Arsenal Support Program Initiative. We also interviewed Tank-automotive and
   Armaments Command, GSIE personnel to determine the changes that would
   make the Pilot Program a more viable operation.

   We visited Anniston Army Depot to gain an understanding of their public-private
   partnerships, contracts, operating capacity, unutilized capacity, overhead and total
   rates, workforce strength, and marketing.

   We performed this audit from August 2002 through April 2003 in accordance
   with generally accepted government auditing standards. The audit scope was
   limited to the request in the National Defense Authorization Act for FY 2003.
   We used and relied on data that Army industrial personnel provided for the
   operating capacity, unutilized capacity, overhead and total rates, and workforce
   strength. We did not review the management control program.
   Use of Computer-Processed Data. We relied on computer-processed data from
   JMC, located at RIA, in determining the number and dollar values of those
   contracts issued under the Pilot Program. We obtained hard copies of contracts
   issued from October 2000 through November 2002 and compared those contracts
   to the computer-processed data. JMC officials and the audit team noted minor
   clerical errors in the data, which had no material effect on the audit. We did not
   assess the reliability of the computer-processed contract data from Pilot Program
   inception through the end of FY 2000.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in the DoD. This report provides coverage
   on the DoD high-risk area to overcome support infrastructure inefficiencies.




                                        13
Prior Coverage
     During the last 5 years, the General Accounting Office issued one report
     discussing the Army industrial facilities. Unrestricted General Accounting Office
     reports can be accessed on the Internet at http://www.gao.gov. Unrestricted
     IG DoD reports can be accessed on the Internet at
     http://www.dodig.osd.mil/audit/reports.

General Accounting Office
     General Accounting Office Report No. GAO/NSIAD-99-31, “Army Industrial
     Facilities: Workforce Requirements and Related Issues Affecting Depots and
     Arsenals,” November 30, 1998

IG DoD
     IG DoD Report No. D-2001-069, “Pilot Program on Sales of Manufactured
     Articles and Services of Army Industrial Facilities,” March 1, 2001

     IG DoD Report No. 99-203, “Status of Implementation of the Pilot Program on
     Sales of Manufactured Articles and Services of Army Industrial Facilities,”
     July 8, 1999

     IG DoD Report No. 99-121, “Pilot Program On Sales of Manufactured Articles
     and Services of Army Industrial Facilities,” April 2, 1999




                                        14
Appendix B. Listing of October 2000 Through
            November 2002 Pilot Program
            Contract Actions

Contractor and Contract Values
The following is a list of the actions on Pilot Program contracts issued from October
2000 through November 2002. New contracts, orders on new contracts, as well as
payments received and new orders placed on contracts identified during prior IG DoD
reviews,*
are included.

             Contract Number                              Contractor                       Dollar Value
 McAlester Army Ammunition Plant:
 DAAA09-02-C-DR05                     General Electric SeaCo                                   $     1,956
 DAAA09-02-C-DR04                     Williams Wood Products                                        14,825
 DAAA09-01-C-DR13                     World Wide Demolition                                      1,858,500
 DAAA09-01-C-DR13/001                 World Wide Demolition                                        753,940
 DAAA09-01-C-DR12                     Raytheon Systems                                             160,000
 DAAA09-00-C-DR11/001                 Alliant Techsystems                                           46,414
 DAAA09-99-C-DR20/0071                Parsons Brinkerhoff/Nordic Ammunition Company                436,800
 DAAA09-99-C-DR20/0061                Parsons Brinkerhoff/Nordic Ammunition Company                980,000
 DAAA09-96-C-DR10/0032                Boeing Company                                               283,122
 DAAA09-96-C-DR10/0032                Boeing Company                                               331,360
  Subtotal                                                                                     $ 4,866,917

 Rock Island Arsenal:
 DAAA09-01-C-DR17/002                 Focus: Hope C.A.T                                            451,006
 DAAA09-01-C-DR17/001                 Focus: Hope C.A.T                                             45,473
 DAAA09-01-C-DR173                    Focus: Hope C.A.T                                                  0
  Subtotal                                                                                     $   496,479

 Watervliet Arsenal:
 DAAA09-01-C-DR06/004                 General Dynamics Land Systems                              4,790,610
 DAAA09-01-C-DR06/002                 General Dynamics Land Systems                                652,704
 DAAA09-01-C-DR06/001                 General Dynamics Land Systems                              2,176,282
 DAAA09-01-C-DR06                     General Dynamics Land Systems                              2,967,445
 DAAA09-01-C-DR04                     United Defense Limited Partnership                           974,154
  Subtotal                                                                                     $11,561,195

     Total                                                                                   $16,924,5914
 1
   Contract awarded prior to FY 2001. Amounts reflect work performed and incremental payments from
 October 2000 through November 2002.
 2
   JMC Direct Sales Office mistakenly duplicated contract number.
 3
   Contract was a basic ordering agreement. The contract had no value and no product or service resulted.
 4
   Total includes actions on prior year contracts. Amount of new contract awards for October 2000 through
 November 2002 total $14,846,895, resulting from seven contracts and six orders.
* Prior IG DoD reviews covered Pilot Program contracts issued from inception of the Pilot Program in
FY 1998 through January 2001.




                                                  15
Contract Types and End Users

         Contract Number                    Product or Service Type           End User of Product or Service

McAlester Army Ammunition Plant:
DAAA09-02-C-DR05                     Container repair                                                  Army
DAAA09-02-C-DR04                     Pallets                                                           Army
DAAA09-01-C-DR13                     Demilitarization of 750-pound bombs                           Air Force
DAAA09-01-C-DR13/001                 Demilitarization of 750-pound bombs                           Air Force
DAAA09-01-C-DR12                     Disassemble Maverick Missile                                  Air Force
DAAA09-00-C-DR11/001                 Base hardness screen of M830A1 rounds                             Army
DAAA09-99-C-DR20/007                 Demilitarization of bombs                                         Army
DAAA09-99-C-DR20/0061                Demilitarization of bombs                                         Army
                    2
DAAA09-96-C-DR10/003                 Harpoon warhead                                                   Navy
                    2
DAAA09-96-C-DR10/003                 Harpoon warhead                                                   Navy

Rock Island Arsenal:
DAAA09-01-C-DR17/002                 Mobile parts hospital prototype                                   Army
DAAA09-01-C-DR17/001                 Mobile parts hospital concept design                              Army
DAAA09-01-C-DR17                     None 3                                                            Army

Watervliet Arsenal:
DAAA09-01-C-DR06/004                 105 millimeter M68A1E5 cannon                                     Army
DAAA09-01-C-DR06/002                 Modify 105 millimeter breech mechanism                            Army
DAAA09-01-C-DR06/001                 105 millimeter breech mechanism                                   Army
DAAA09-01-C-DR06                     105 millimeter M68 (Mod) gun tube                                 Army
DAAA09-01-C-DR04                     Advanced gun system prototype                                     Army
1
  Contract awarded prior to FY 2001. Amounts reflect work performed and incremental payments from
October 2000 through November 2002.
2
  JMC Direct Sales Office mistakenly duplicated contract number.
3
  Contract was a basic ordering agreement. The contract had no value and no product or service resulted.




                                                  16
Appendix C. Issues and Results
   The IG DoD performed this audit as required by the National Defense
   Authorization Act for 1998, section 141, subsection (c), and reauthorized by the
   National Defense Authorization Act for 2003. The issues in section 141,
   subsection (c), and results are as follows.

   Issue 1. “The Inspector General’s views regarding the extent to which the waiver
   under subsection (b) enhances the opportunity for United States manufacturers,
   assemblers, developers, and other concerns to enter into or participate in contracts
   and teaming arrangements with Army industrial facilities under weapon system
   programs of the Department of Defense.”

   Results. Based on a review of Pilot Program contracts issued from
   September 1998 through November 2002 and discussions with personnel at the
   facilities reviewed, we believe that, although the waiver increased opportunities
   for U.S. concerns to form working relationships with Army industrial facilities,
   little interest was shown by the U.S. concerns. Opportunities resulting from the
   Pilot Program have marginally increased since the first contract was issued in
   September 1998 under the Pilot Program. For the first 25-month period
   (September 1998 through September 2000), about $6 million was awarded under
   the Pilot Program. Of the $6 million, $5.2 million was one contract incrementally
   funded over a 5-year period. During the next 26-month period (October 2000
   through November 2002), about $16.9 million was awarded, which includes about
   $1.4 million in incremental payments received from prior awards. (See Appendix
   B for a listing of October 2000 through November 2002 Pilot Program contract
   actions.) The increase in Pilot Program activity is primarily due to WVA, which
   does not recognize any contracts as being issued under the Pilot Program (see
   Issue 4). Personnel at the Army industrial facilities stated that the facilities would
   have received a large portion of the contracts with or without the advantages of
   the waiver or the Pilot Program. The statements were based on the industrial
   facilities receiving the contracts because of no commercial sources.

   Issue 2. “The Inspector General’s views regarding the extent to which the waiver
   under subsection (b) enhances the opportunity for Army industrial facilities
   referred to in section 4543(a) of title 10, United States Code, to enter into or
   participate in contracts and teaming arrangements with United States
   manufacturers, assemblers, developers, and other concerns under weapon system
   programs of the Department of Defense.”

   Results. Similar to Issue 1, any enhanced opportunity the Pilot Program offers is
   difficult to identify because of a lack of interest and the low number of contracts
   issued using the waiver. Additionally, the facilities reviewed have little or no
   funding allocated specifically for marketing of the Pilot Program. Marketing of
   the Pilot Program is usually accomplished in conjunction with other facility
   programs.




                                        17
Of the contracts issued, the Army industrial facilities and JMC personnel believe
the facilities would have received most of the contracts without the use of the
waiver in subsection (b). Also, the three Pilot Program sites maintain little data
regarding Pilot Program bids and why U.S. concerns did not award contracts for
bids submitted under the Pilot Program.

Issue 3. “The Inspector General’s views regarding the effect of the waiver under
subsection (b) on the ability of small businesses to compete for the sale of
manufactured articles or services in the United States in competitions to enter into
or participate in contracts and teaming arrangements under weapon system
programs of the Department of Defense.”

Results. We cannot determine the effect the program had on small businesses
because only 19 basic contracts that used the waiver under subsection (b) were
awarded between September 1998 and November 2002. We did not identify any
opportunities or detriments to small businesses because of the waiver.

Issue 4. “Specific examples under the Pilot Program that support the Inspector
General’s views.”

Results. Because of the nature of work performed on the contracts under the
Pilot Program, JMC officials believe that the Army industrial facilities would
have received most of the work regardless of the waiver. Based on our review of
contract documentation, Army industrial facilities received similar awards before
the Pilot Program. When meeting with personnel at WVA, we were told that the
contracts would have been awarded to the facilities because of no commercial
sources.

The most obvious examples for the previous statement are the contracts awarded
to WVA. JMC officials provided a list of Pilot Program contracts for WVA,
which contained three contracts and three orders on one of those contracts. WVA
believes they would have been awarded the contracts regardless of the waiver and
denied that the contracts were issued under the Pilot Program. Through
discussions, we determined that JMC considered the contracts under the Pilot
Program because the contracts included a waiver of the need to determine
commercial sources. JMC personnel admitted that many Pilot Program contracts
would have been awarded without the benefits of the waiver.

We identified misunderstandings between JMC and the Army industrial facilities
reviewed regarding Pilot Program classification. The JMC contracting officer
stated by including the statement that waived the obligation to identify
commercial sources determined the classification of a Pilot Program contract.
That belief is not, however, the same belief the Army industrial facilities shared.
Misunderstandings in determining whether a contract was issued under the Pilot
Program hindered reporting Pilot Program achievements (see page 8 of the
finding for additional details).




                                     18
Issue 5. “Any other information that the Inspector General considers pertinent
regarding the effects of the waiver of section 4543(a)(5) of title 10, United States
Code, under the Pilot Program on opportunities for United States manufacturers,
assemblers, developers, or other concerns, and for Army industrial facilities, to
enter into or participate in contracts and teaming arrangements under weapon
system programs of the Department of Defense.”

Results. With one exception, the hourly overhead rates that the Army industrial
facilities charge have declined since the last IG DoD audit of the Pilot Program.
The overhead rates for MCAAP declined about 14.29 percent between FY 2001
and FY 2002 and 15.7 percent between FY 2002 and FY 2003. The overhead
rates for RIA declined about 6.5 percent between FY 2001 and FY 2002 and
12.7 percent between FY 2002 and FY 2003. Overhead rates for WVA decreased
4.8 percent between FY 2001 and FY 2002 but increased 8.4 percent between
FY 2002 and FY 2003. The decreased overhead rates allow the industrial
facilities to be more cost competitive when submitting bids for Pilot Program
work. The declining overhead rates may be attributed to implementation of
programs such as the Arsenal Support Program Initiative and other private-public
partnership arrangements at the facilities. Those programs are designed to defray
the cost for operating and maintaining any underutilized facilities by allowing
commercial tenants to utilize excess industrial facility space. Although the Pilot
Program does not apply to Anniston Army Depot, the public-private partnerships
the depot used were effective in reducing the Government’s cost to maintain the
facility.

Based on prior IG DoD reports as well as our interviews with Army industrial
facility personnel during the audit, the requirements that contractors pay before
receiving articles and services (advance payments) and that Army industrial
facilities charge full costs have hindered the effectiveness of the Pilot Program
(see pages 4 and 5 of the finding for additional details).

According to statements and information provided by the facilities reviewed, most
workers at the three Army industrial facilities are eligible for retirement within
the next 5 to 10 years. Large numbers of skilled workers retiring threatens the
effectiveness of the Army industrial facility programs. Reductions in force and
the lack of apprenticeship programs at the Army industrial facilities reviewed
have threatened the Army’s ability to maintain a skilled workforce. MCAAP uses
a program for students for which the students gain work experience with MCAAP
while completing their education. Students may be non-competitively offered
career-conditional appointments with MCAAP upon successful completion of
their academic requirements. Apprenticeships have resumed at RIA, but lack of
funding has hindered the progress at RIA and has prevented WVA from
reinitiating their apprentice programs. Building and retaining a skilled workforce
is critical to the facilities because many skilled employees were lost during the
reductions in force.

Issue 6. “Any recommendations that the Inspector General considers appropriate
regarding continuation or modification of the policy set forth in section
4543(a)(5) of title 10, United States Code.”




                                     19
Results. We have not identified any adverse effects of the program, although
limited benefits were identified. We believe the Pilot Program should be
continued. RIA noted that participating in the Pilot Program does not increase the
cost of the facility. The ability of the Army industrial facilities to identify
strengths and shortfalls of the program would be enhanced by increased
monitoring of the program and data related to the bids submitted under the Pilot
Program. However, an increased administrative burden may result from such
monitoring. The Army industrial facilities could make adjustments to policies
and procedures based on the additional data obtained when bids are submitted
resulting in no awards and work performed at the facilities. In addition to
increased monitoring of the Pilot Program, better marketing would raise
awareness of the Pilot Program. An increase in monitoring and awareness of the
Pilot Program along with implementation of other public-private partnership
programs would likely be beneficial in increasing the workload at the three
participating Army industrial facilities. (See the Finding section for
additional details.)




                                    20
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, Army Material Command
  Commander, U.S. Army Joint Munitions Command
      Commander, McAlester Army Ammunition Plant
  Commander, U.S. Army Tank-automotive and Armaments Command
      Commander, Anniston Army Depot
      Commander, Rock Island Arsenal
      Commander, Watervliet Arsenal
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force




                                          21
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        22
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
Joseph P. Doyle
Deborah L. Culp
LaNita C. Matthews
Kelly D. Garland
Jeffrey C. Brown
Jeffrey L. Steinbauer
Curtis P. Greene
Justin C. Husar
Angela M. Kendera
